Assessment of the Alternative
Agricultural Research
and Commercialization
Corporation - Management
Lacking Over High Risk
Investments




                   Audit Report No.
                   37099-1-FM
                   November 1999
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                             OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250




DATE:        November 30, 1999

REPLY TO
ATTN OF:     37099-1-FM

SUBJECT:     Assessment of the Alternative Agricultural Research
               and Commercialization Corporation
             Management Lacking Over High Risk Investments

TO:          Jeffrey W. Gain
             Chairman, Board of Directors
             Alternative Agricultural Research
               and Commercialization Corporation (AARCC)


This report presents the results of our audit of the Alternative Agricultural
Research and Commercialization Corporation’s (AARCC) management of its
program. Our review disclosed that AARCC provided federal assistance to
program participants with little or no assurance that benefits would be
derived. In addition, AARCC did not monitor the actions of investees who had
received funding to protect the Government’s interest; as a result, the
majority of its investments have been, or are in jeopardy of being, lost.
These significant weaknesses stemmed, in part, from the absence of internal
controls prescribed by management to safeguard assets and efficiently fulfill
the legislated mission. Our review also disclosed, however, other instances
in which investees violated stated AARCC requirements with AARCC’s knowledge
or at least tacit approval.

The discussion draft of this report was forwarded to you and AARCC management
on October 18, 1999. Subsequently, we became aware that Congress did not fund
AARCC operations for fiscal year 2000. In addition, Dr. Armstrong has
indicated orally to us that he has no interest in discussing this report
because of the cessation of the corporation’s activities. Due to these unique
circumstances, we are issuing this report in final to you.

Several of the recommendations in this report remain viable in that they deal
with managing ongoing investment activity. The implementation of these
recommendations, however, is contingent upon the Department’s decision
regarding the dissolution of the portfolio (i.e., retained and managed by
another USDA agency or sold to private parties).

Please advise us by December 15, 1999, of the Department’s plans regarding the
AARCC investments. If you would like to discuss this matter, please call me
at 720-6945.




ROGER C. VIADERO
Inspector General

Attachment
TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

     RESULTS IN BRIEF   . . . . . . . . . . . . . . . . . . . . . . . . . .   1

     KEY RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . .    5



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     BACKGROUND   . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   6

     OBJECTIVES   . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   8

     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . .    9



FINDINGS AND RECOMMENDATIONS       . . . . . . . . . . . . . . . . . . . . 11

 Chapter 1 - Management of AARCC Has Been Ineffective -- Government’s
           Financial Interests Have Not Been Protected And Its
           Legislative Mission Has Not Been Fulfilled . . . . . . . . . . 11

           Finding No. 1 - Government’s Financial Interests Have
           Not Been Protected . . . . . . . . . . . . . . . . . . . . . . 11

           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 21

           Finding No. 2 - Results Indicate AARCC Has Failed To
           Accomplish Its Mission . . . . . . . . . . . . . . . . . . . . 23

           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 26

  Chapter 2 - AARCC’s Operations Would Benefit By Employing

           Best Practices   . . . . . . . . . . . . . . . . . . . . . . . . 27

           Finding No. 3 . . . . . . . . . . . . . . . . . . . . . . . . . 27

           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 30




USDA/OIG-A/37099-1-FM                                                  Page i
                             EXECUTIVE SUMMARY
                        Assessment of the Alternative
                Agricultural Research and Commercialization
                     Corporation - Management Lacking
                         Over High Risk Investments
                       AUDIT REPORT NO. 37099-1-FM


                                                 Ourassessment      of     the    Alternative
                PURPOSE                    A g r i c u l t u r a l     R e s e a r ch    and
                                           Commercialization Corporation’s (AARCC)
                                           investments was performed because of
                                           severe      internal       administrative      and
                accounting control deficiencies identified during our audit of
                AARCC’s financial statements for fiscal year 1997.1                During our
                review of investment files maintained by AARCC at its Washington,
                D.C.   office,  we   noted    evidence       of    potential      significant
                noncompliance with AARCC investment agreements and possible misuse
                of Government funds. We concluded that the deficiencies noted left
                AARCC highly susceptible to fraud, waste and abuse.


                                                 Our
                                           site visits at 11 investees and one
         RESULTS IN BRIEF             grantee that had received, in total, over
                                      $8 million in AARCC funding disclosed
                                      significant problems. We found general
                                      noncompliance    with   the    investment
            agreements and evidence that most of the projects visited did not
            result in any substantive job creation in rural areas or expansion
            of agricultural markets. Even more significant was that we found
            potentially fraudulent activities for a number of investees. For
            example, two of the 11 companies appear to be in violation of the
            Securities Acts of 1933 and 1934 because of the significance of
            their misrepresentations (e.g., substantial overstatement of sales
            expectations, etc.).

                We believe these serious problems are attributed to the absence of
                effective internal administrative and accounting control policies
                and procedures within the Corporation, poor investment decisions and




1   Audit Report No. 37401-2-FM, "U.S. Department of Agriculture Alternative Agricultural Research
    & Commercialization Corporation’s Financial Statements for Fiscal Year 1997," dated January 1999.



USDA/OIG-A/37099-1-FM                                                                        Page 1
           ineffective monitoring actions by AARCC. During our previous audit
           of AARCC’s fiscal year 1997 financial statements, we estimated that
           about 75 percent of AARCC’s approximate $27 million portfolio was
           nonperforming, representing over $20 million in potential losses.
           Based on the results of this audit, we believe that AARCC’s
           financial position may have deteriorated even further.

           To illustrate the decline in investment value for AARCC, we believe
           that AARCC will not recoup about $6.8 million (about 85 percent) of
           its $8 million investment in the 11 investees visited.      This is
           because four of the companies have ceased operations, and five of
           the companies are experiencing significant financial difficulties,
           including significant losses, and limited sales/production, to such
           a degree that we question their ability to continue as going
           concerns.

           In addition, while the two remaining investees are still operating,
           they are primarily producing non-AARCC products even though they
           used AARCC funds to assist in the production of these products.

           We referred several of the investees to the Office of Inspector
           General, Investigations.

           Misuse of AARCC Funds
           We noted that 9 of the 11 investees visited (one with AARCC’s
           approval) had improperly used AARCC funding.  Examples of the
           problems noted follow.

           · We noted where three companies used AARCC funding, which was
             provided for advertising, business planning, marketing and/or
             research expenses, to pay off an existing owner’s debt and/or
             other private investors, (a decision that had significant impact
             on these investees). For example, a company used about $344,000
             of AARCC’s approximate $450,000 investment to pay off the existing
             debt to a company owned by one of its partners. AARCC approved
             this transaction indicating that "it was just bookkeeping." The
             company is now out of business and, in effect, this transaction
             allowed the partner to recoup his prior investment, with
             Government funds, before shutting down operations.

           · We also noted where a company used $715,000 of AARCC funding to
             establish a system and production line for the commercialization
             of oil absorbents from a low grade wool.    However, during our
             onsite audit work we found that, for the past several years, the
             production line was being used 98 percent of the time to produce
             non-AARCC products. AARCC receives no return on its investment
             when these non-AARCC products are produced.




USDA/OIG-A/37099-1-FM                                                   Page 2
               · Another company claimed to have used $90,000 to pay management
                 consulting fees to a private firm to market its products. This was
                 an approved use of the AARCC funding. However, when we attempted
                 to validate this payment we were advised by the consulting firm
                 that they had not received the $90,000.

               Questionable Related Party Transactions
               We noted in 7 of the 11 investees visited that there were instances
               of highly questionable and potentially fraudulent related party
               transactions.2 This potentially fraudulent activity would have been
               identified and reported to AARCC had AARCC obtained audited
               financial statements, as required in its investment agreements, and
               as we recommended in our previous financial statement audit. AARCC
               however, has indicated that it is not willing to enforce this legal
               requirement.

               To illustrate the significance of the problem, at one company, we
               were provided bank statements and/or cancelled checks relating to
               seven companies to support the expenditures of AARCC funds. The
               seven companies are subsidiaries of their "parent," a Canadian
               holding corporation.      We noted that funds were frequently
               transferred between the companies’ accounts with no explanation or
               support for the transfers. The last two drawdowns of AARCC funds,
               totaling over $50,000, were deposited directly into the bank account
               of one of the related companies and we were unable to determine what
               the funds were used for.

               Failure To Contribute Required Matching Funds Negatively Impacts
               Investee Operations
               We noted where 8 of the 11 investees visited failed to contribute
               matching funds totaling about $3 million. We found that AARCC had
               no effective process to assure that, as legally required, matching
               funds were contributed. In some instances, AARCC was aware of this
               serious breach of the agreement, and took no actions to enforce this
               critical requirement. As noted by venture capital experts, it is
               critical that principals invest personal funds into the companies to
               assure they have a vested interest in the success of the projects.
               In addition, this lack of funds had a substantial negative impact on
               the investee operations.




2 Related party transactions represent transactions between affiliated companies and appropriate
  disclosure should be made. This would include the nature of the relationship, a description of
  the transactions including dollar amounts, amounts due to and from related parties and terms and
  manner of settlement.



USDA/OIG-A/37099-1-FM                                                                     Page 3
               Grants Awarded Non-Competitively Did Not Benefit The Government
               Two grants, totaling $100,000 for one grantee, were not awarded
               competitively, as required by the Food, Agriculture, Conservation
               and Trade (FACT) Act of 1990 and the Federal Agricultural
               Improvement and Reform (FAIR) Act of 1996. In addition, our onsite
               review disclosed that the company did not maintain required records
               to support work performed for AARCC. In addition, the first grant
               for $50,000, was not awarded until after the "services" had been
               performed. These grants also have resulted in no tangible benefits
               to the Government or AARCC investees. In addition, AARCC awarded
               funding to two other AARCC investees so that those companies could
               retain this grantee’s "services." One company declined to use the
               services of this company and the other investee noted "severe
               disappointment" with the services provided.

               Results Indicate AARCC Has Not Accomplished Its Mission
               Our review of these 11 investees disclosed no substantive evidence
               that the AARCC funded activity resulted in job creation in rural
               areas, or material expansion of agricultural markets.

               · AARCC identified job creation in rural areas as one of its
                 priority goals under the Government Performance and Results Act.
                 In the overview of its fiscal year 1997 financial statements,
                 AARCC claimed that one of its goals is to create 10,000 jobs by
                 the year 2002.

                  However, there were no jobs created at 5 locations; a decrease of
                  19 jobs at 3 locations; and only 1 job was created at 1 location3.
                  The jobs created at the 2 remaining locations were not as a result
                  of the AARCC products, and the companies are in serious breach of
                  the AARCC agreement.     We concluded that overall, AARCC’s $8
                  million investment in these 11 companies (which represents about
                  20 percent of all AARCC investments) resulted in fewer jobs than
                  before AARCC’s involvement.

               · We also noted little to no usage of agricultural products, another
                 critical component of AARCC’s mission. For example, one company
                 estimated usage of 30 million pounds of raw wool annually; the
                 company actually has used an annual average of about 15,000
                 pounds.

               AARCC Could Benefit By Employing Best Practices
               Venture capital investments are inherently speculative in nature
               with the high risk of total loss. In discussions with the National




3   The AARCC sponsored product only represents about 20 percent of this company’s operations.



USDA/OIG-A/37099-1-FM                                                                     Page 4
           Venture Capital Association, the Director of Small Business
           Administration’s (SBA) Small Business Investment Companies (SBIC),
           an associate professor of Business Administration from Harvard
           University, and numerous other State and private venture capital
           managers, we determined that AARCC’s operating and investing
           policies and procedures were significantly less than the "Best
           Practices" employed by these entities.

           In summary, based upon our prior audit work and detail analysis of
           the 11 investees we visited, we concluded that AARCC’s investments
           have not met the intent of the enabling legislation. Based upon
           initial investment decisions, and/or subsequent ineffective
           monitoring of these investments, Government funds have been expended
           on companies, with little to no chance of success. Unless actions
           are taken to immediately reverse these trends, we see additional
           losses in the future.


                                     We recommend that no further investments
  KEY   RECOMMENDATIONS             be made  until actions are taken to (1)
                                    resolve all material internal accounting
                                    and administrative controls weaknesses
                                    that we have reported, and (2) contract
          with financial and venture capital experts to assist in management
          of the Corporation and assess the value of each investment. We
          recommend that no action be taken on these investees until
          disposition of the referrals are known or the investigations are
          completed.




USDA/OIG-A/37099-1-FM                                                   Page 5
                           INTRODUCTION

                                      The AARCC was established in March 1992,
                                      as an independent entity within the U.S.
         BACKGROUND                   Department of Agriculture (USDA).     The
                                      program was authorized by the Food,
                                      Agriculture,   Conservation   and   Trade
           (FACT) Act of 1990. The Federal Agricultural Improvement and Reform
           (FAIR) Act of 1996 established AARCC as a "corporation" within USDA,
           subject to the general supervision and direction of the Secretary of
           Agriculture.

           AARCC was created to expedite the development and market penetration
           of non-food, non-feed value added industrial products from
           agricultural and forestry materials and animal by-products.       It
           provides funds to companies and individuals for projects that, if
           successful,   create   jobs,   increase  demand   for   agricultural
           commodities, and enhance economic development in rural areas.
           Applicants are required to show that they have invested significant
           resources in the proposed projects and must obtain matching funds at
           least equal to AARCC’s investment.

           An 11 member Board, appointed by the Secretary of Agriculture,
           establishes policy, evaluates and approves applications for AARCC
           financial assistance, and oversees operations of the Corporation.
           Eight members are non-Federal, representing commercial, financial,
           producer, and scientific interests. The Board appoints an Executive
           Director, subject to the approval of the Secretary. The Executive
           Director is the chief executive officer of the Corporation and is
           responsible for the overall management and implementation of general
           policies with respect to the management and operation of the
           programs and activities of the Corporation.

           According to June 1994 draft procedures, project proposals should
           undergo a review process prior to funding. The process begins when
           an applicant submits a pre-proposal to AARCC. The pre-proposal is
           subject to reviews by three outside reviewers as well as AARCC
           staff. The independent reviews consist of business, technical and
           general (management) reviews.    AARCC’s Board then evaluates the
           findings of the reviewers and determines which projects merit
           further consideration. For the most promising projects, additional
           information is gathered. The applicant is asked to complete a full
           proposal which is reviewed by the Board.   AARCC will also conduct
           a site visit to assess operations and negotiate the terms of the
           agreement. The AARCC Board will then formally vote to ratify or




USDA/OIG-A/37099-1-FM                                                   Page 6
           reject the investment.     Once a project is ratified, AARCC is
           responsible for monitoring the progress of the project. At AARCC’s
           discretion, this monitoring may take the form of telephones calls,
           site visits, meetings at AARCC headquarters or other locations,
           and/or review of the documents submitted by the investees.

           We recently completed the first audit of the AARCC financial
           statements. During the audit, we noted significant weaknesses in
           AARCC operations. We were unable to express an opinion on the AARCC
           financial statements for the fiscal year ended September 30, 1997.
           This disclaimer of opinion was significantly impacted by the absence
           of an effective internal control structure, and compounded by the
           lack of reliable financial information on AARCC’s investees.

           Our disclaimer of opinion means that AARCC could not provide
           reasonable assurance that it can (1) properly record and account for
           transactions which permit the preparation of reliable financial
           statements, (2) maintain appropriate accountability over assets, and
           (3) properly safeguard Government funds from loss and/or
           unauthorized use.

           We identified, in the above cited report, the following material
           internal control weaknesses that impacted the Corporation’s
           operations.

           •     There was an overall absence of effective procedures to assure
                 that investees used AARCC funds as intended.

           •     There was an absence of effective procedures to assure the
                 investees contributed required capital, and the contribution
                 was properly valued.

           •     There were inadequate policies or procedures to assure that
                 the Government’s investment was protected because AARCC does
                 not require investees to provide a security interest (lien) on
                 the equipment, machinery, etc., obtained with AARCC loan
                 funds. As a result, the Corporation is unnecessarily at risk
                 in the event of a default.

           •     There were insufficient and/or ineffective policies and
                 procedures over the loan/investment making process, including
                 inadequate documentation over:

                 ·      lending/investing   decisions   for   new   and   existing
                        investees,

                 ·      determining the rate of return on the investment, note,
                        etc., and

                 ·      decisions to issue grants for selected operations.




USDA/OIG-A/37099-1-FM                                                      Page 7
               •       There was substantial lack of adherence to existing critical
                       policies and procedures (e.g., obtaining audited financial
                       statements from the investees). As a result, AARCC does not
                       have reasonable assurance about the financial strengths of its
                       investees, whether repayments, etc., are made in compliance
                       with terms of each agreement, or whether AARCC funds were used
                       as intended.

               •       There was a general lack of policies and procedures for
                       performing credit checks, background investigations, and
                       obtaining references about the integrity of the investees.4

               •       There was a substantial need               for   improvements      in   the
                       monitoring of the investees.

               We concluded that AARCC and the Department had minimal assurance
               that taxpayers’ monies have been properly expended and investments
               totaling over $27 million were properly protected (we estimated that
               about 75 percent of AARCC’s portfolio was nonperforming to the
               extent that it had no value). While venture capital is inherently
               high risk, the risk of loss associated with AARCC’s portfolio is
               substantially greater because of its lack of an effective internal
               control structure and poor investment and monitoring actions. Since
               its inception in 1992 through July 1998 (the date we completed the
               fiscal year 1997 financial statement fieldwork), AARCC had written
               off investments totaling about $1.6 million and there was an
               additional $2.8 million in investments where AARCC officials had
               indicated writeoff is imminent. These amounts represented about 16
               percent of the investments made since the inception of AARCC. Our
               work indicated that unless these material control weaknesses were
               corrected, additional losses will occur.
                                                The objectives of this audit were (1) to
                                          determine whether AARCC investees were
             OBJECTIVES                   complying with all material provisions of
                                          the investment agreement (i.e., determine
                                          whether    each   investee    contributed
                                          matching funds, used AARCC funding as
               agreed upon, were repaying in accordance with the terms of the
               agreement, producing the product as agreed upon, and submitting
               reliable, accurate financial reports), (2) to determine whether
               AARCC had adequately managed its operations (i.e., issued and
               enforced program provisions which would protect the Government’s
               financial interests while fulfilling its mission), and (3) to assess
               whether overall program objectives of increased demand for farm
               commodities, increased farm income, and increased




4   During fiscal year 1997, AARCC began performing credit checks on new investees; however, a
    documented procedure is needed to ensure that credit checks and other background investigations
    are performed on all new and additional lending/investing to existing investees.



USDA/OIG-A/37099-1-FM                                                                      Page 8
           rural community development had been achieved (e.g., amount of
           agricultural products used to date and number of jobs created).

                                     We   reviewed a judgmentally selected
                                    sample of 11 AARCC investees and 2 grants
         SCOPE AND                  awarded to 1 grantee. The companies were
        METHODOLOGY                 selected on the basis of size, location,
                                    and certain risk factors identified
                                    during the financial statement audit.
                                    AARCC’s management agreed that the sample
          represented a cross section of its investments. Funding provided
          for the 12 projects totaled over $8 million which represented about
          20 percent of AARCC investments made since its inception through
          April 6, 1999.

           To accomplish the audit objectives, we performed site visits at the
           selected companies’ offices. We performed the following audit work,
           as appropriate.

           ·     Reviewed the company’s accounting records, general ledger,
                 bank statements, financial reports, tax returns and supporting
                 invoices, checks, etc.

           ·     Interviewed the company’s owners, accountants, lawyers, and
                 other appropriate management officials.

           ·     Confirmed sales and purchases with the company’s vendors and
                 customers.

           ·     Analyzed the impact of material related party transactions.

           ·     Compared actual with the budgeted use of funds.

           ·     Determined whether the company had obtained an audit of its
                 annual financial statements.

           We also assessed the extent that the project accomplished the
           following:

           ·     Developed technologies that could make it possible to use or
                 modify existing agricultural commodities to provide an
                 economically viable quantity of new non-food, non-feed
                 products;

           ·     increased the potential market size of new non-food, non-feed
                 products;

           ·     increased the potential for job creation;

           ·     involved State or local participation;

           ·     involved financial participation of private investors;




USDA/OIG-A/37099-1-FM                                                   Page 9
           ·     reduced Federal crop subsidies and other Federal agricultural
                 assistance program costs;

           ·     had a positive impact    on   resource   conservation   and   the
                 environment; and

           ·     involved a likely positive effect of helping family-sized
                 farmers and rural communities.

           We reviewed investee files maintained by AARCC prior to our site
           visits.

           We also obtained and reviewed (1) the policies and procedures the
           Small Business Administration (SBA) follows in its monitoring of the
           Small Business Investments Companies (SBIC) that it licenses, (2)
           SBIC best practices as reported by the Office of Inspector General
           (OIG)-SBA, and (3) interviewed auditors and officials from National,
           State and private venture capital firms.

           We conducted our audit during the time period January through June
           1999. The audit was performed in accordance with generally accepted
           Government auditing standards.




USDA/OIG-A/37099-1-FM                                                    Page 10
            FINDINGS AND RECOMMENDATIONS


  CHAPTER 1 - MANAGEMENT OF AARCC HAS BEEN INEFFECTIVE --
  GOVERNMENT’S FINANCIAL INTERESTS HAVE NOT BEEN PROTECTED AND
  ITS LEGISLATIVE MISSION HAS NOT BEEN FULFILLED


Our  site visits at 12 entities that had received AARCC funding disclosed
significant noncompliance with the investment agreement, evidence that the
projects did not result in substantive job creation in rural areas or expansion
of agricultural markets, and a significant number of possible fraudulent or
abusive practices.   We believe this problem is attributed to the absence of
effective internal administrative and accounting control policies and procedures
within the Corporation and poor investment and monitoring actions by AARCC.

We noted several instances of apparent fraudulent activity, misuse of AARCC
funding, and extensive and significant misrepresentations by many of the
companies. We concluded that AARCC was aware of many of these problems, or
should have been aware of these instances through its monitoring efforts. As a
result, AARCC and the Department have reduced assurance that taxpayers’ monies
have been properly expended and investments are properly protected.
Additionally, because of these internal control weaknesses, we believe AARCC has
incurred unnecessary losses and will continue to do so until significant
corrective actions are taken. We estimated that 75 percent of AARCC’s portfolio
was nonperforming to the extent that it has no value.

                                      When investing in a project, AARCC enters
                                      into an investment agreement requiring
           FINDING NO. 1              the investee to comply with certain
                                      conditions. While these agreements are
      GOVERNMENT’S FINANCIAL          tailored to meet the specific needs of
                                      the project and AARCC, the investment
        INTERESTS HAVE NOT            agreement    generally   provides  the
          BEEN PROTECTED              following, at a minimum.

                                      ·      Details what the company and AARCC
                                             agree to do.

            ·     An agreement that all projects/activities will be jointly
                  planned and conducted.

            ·     Details conditions, repayments and equity holdings in exchange
                  for monies.




USDA/OIG-A/37099-1-FM                                                   Page 11
           ·     Requires that the company must obtain prior written approval
                 for changes in budget of more than 10 percent.

           ·     Requires that the company     shall     arrange   for    an    annual
                 financial statement audit.

           ·     Requires that the company     retains    ownership      in   patents,
                 inventions, and copyrights.

           ·     Stipulates   that  if   noncompliance   has  occurred, the
                 programmatic contact will notify the company in writing of
                 noncompliance and corrective action necessary.

           During audit work at the 12 projects, we noted substantial
           noncompliance with many of the above requirements. Noncompliance
           was not precluded by AARCC, in part, because its internal controls
           were not adequate to identify such actions but also because AARCC
           management opted not to enforce critical provisions designed to
           protect the Government.     Due to the extensive nature of the
           disclosures, specific details of noncompliances relating to each
           site visited will be provided in separate correspondence. We also
           referred several of the investees to the Office of Inspector
           General, Investigations. For example, we noted:

           ·     potentially fraudulent use of Government funds,

           ·     potential violations of anti-fraud         provisions         of   the
                 Securities Acts of 1933 and 1934,

           ·     overall noncompliance with the AARCC investment agreement for
                 many of the investments reviewed, and

           ·     a conflict of interest involving a current member of the AARCC
                 Board.

           Misuse of AARCC Funds
           We noted that 9 of the 11 companies visited (one with AARCC’s
           approval) had inappropriately used AARCC funding as stipulated in
           the signed agreement. Two of these companies may be in violation of
           the Securities Acts of 1933 and 1934 because of the significance of
           their misrepresentations. The anti-fraud provisions of these Acts
           apply to all companies whether an offering is exempt or registered.
           Various provisions in the securities statutes make it illegal to
           make a misstatement or omission of a material fact in connection
           with an offering.      We believe these misrepresentations were
           intentional because of the magnitude of the misstatements. Some
           examples of the problems noted follow.




USDA/OIG-A/37099-1-FM                                                          Page 12
               •          Company A, has received over $2.6 million in AARCC financing,
                          since August 1993, to develop a state-of-the-art system to
                          commercialize new structural panels made from kenaf5 and other
                          agricultural and forestry materials. To date, sales have been
                          insufficient to allow a return to AARCC. Company A has ceased
                          production.

                          Our   review   disclosed   that   the   company   consistently
                          misrepresented its use of AARCC funds.      It paid excessive
                          compensation and fringe benefits to its officers, and failed
                          to meet its cost and production projections. For example, the
                          company projected it would take about 9 months and cost about
                          $1.7 million to enter into production; it actually took 18
                          months and cost about $4 million.     For the second year of
                          production, the company projected Net Income Before Tax of
                          over $7.4 million; the company actually experienced Net Loss
                          Before Tax in excess of $2.4 million.      We also noted that
                          actual expenses consistently exceeded budgeted expenses as
                          shown in the following table:

                                                                                      6
                   Fiscal Year       Budgeted Expenses            Actual Expenses
                   1994              $1.5 million                 $2.0 million
                   1995              $1.6 million                 $5.4 million
                   1996              $2.7 million                 $5.7 million
                   1997              $3.3 million                 $7.2 million

                          We attributed the differences, in part, to the following:

                          ·     Excessive salaries, rents, fringe benefits and travel
                                costs were found.    For example, we noted where the
                                company paid salaries to its management approximately 3
                                times higher than was provided in the budget submitted
                                to AARCC.   During the period 1994 through 1997, the
                                company budgeted salaries for its officers totaling over
                                $1.6 million; actual salaries paid totaled over $5.8
                                million (a difference of over $4.2 million).




5 Kenaf is a biodegradable, environmentally friendly alternative fibre crop that has been
  researched by USDA for over 50 years. It can replace or augment the traditional uses of trees and
  fossil fuels in many instances.

6 Up until April 1996, Company A was required to obtain written consent from AARCC when actual
  expenses exceeded budgeted by more than 10 percent.



USDA/OIG-A/37099-1-FM                                                                     Page 13
                 ·      During our site visit, we found that the controller had
                        embezzled funds, including AARCC funding, in excess of
                        $70,000. The incident is under police investigation.

                 ·      We noted where $510,000 of AARCC funding was to be used
                        to purchase equipment.     Although the equipment was
                        purchased, the company immediately sold the equipment
                        and entered into an agreement to lease back the
                        equipment. The company is currently in default on the
                        lease payments.

                 ·      The company obtained the technology for its AARCC
                        project from the Agricultural Research Service (ARS)
                        through an Intellectual Property License. The license
                        provides that, "This license shall not be transferred or
                        assigned by Licensee to any party other than a successor
                        or assignee of the entire business interest of the
                        Licensee relating to the invention." During the period
                        1993 through 1998, the company has made at least
                        $112,000 in royalty payments to USDA.         We found,
                        however, that the company had sublicensed these rights,
                        for a fee, to three of its shareholders to market the
                        product in foreign countries. For example, a private
                        investor paid $1.1 million plus an equity investment of
                        $700,000 for the Japanese rights.         The agreement
                        requires that sublicenses be subject to prior approval
                        by the licensor. We found no documentation that this
                        approval had been obtained and the royalty rights of
                        USDA protected.

                 We attributed these problems to insufficient and ineffective
                 monitoring efforts by AARCC. According to company officials
                 AARCC has had a representative at Board meetings for the last
                 year and a half, but only as an observer. AARCC visits to the
                 company did not include reviews of company records, or other
                 detailed analyses.

             •   In August 1995, Company B entered into a venture capital
                 agreement with AARCC for $450,000 to develop, manufacture, and
                 market headbands.    In return, AARCC received a 10 percent
                 equity interest in the company as well as royalty rights on
                 sales of the AARCC sponsored product (headbands).

                 The agreement was made with the expectation that the company
                 had the commercial processing technology to manufacture
                 headbands.   Also, the company represented that there were
                 buyers interested in purchasing headbands, and that a full
                 scale commercial manufacturing and marketing business could be
                 realized. However, immediately after receiving AARCC funding,
                 the company concluded that no market for the headbands




USDA/OIG-A/37099-1-FM                                                   Page 14
                 existed. It decided to produce incontinence pads in lieu of
                 the headbands and began commercial operations for the pads
                 about October 1996. Since the incontinence pads were not part
                 of the signed agreement, their sales have not been subject to
                 royalty payments for the last 3 years.

                 Misrepresentations made to AARCC during the proposal phase may
                 also violate anti-fraud provisions of the Securities Acts of
                 1933 and 1934. Misrepresentations of a product’s likelihood
                 of success is one example of a material misstatement of fact
                 which applies to the company.     The company’s proposal for
                 funding included proforma financial statements which estimated
                 headband sales at $2.4 million in 1995, $6.8 million in 1996,
                 $10.0 million in 1997, and $11.4 million in 1998. As stated
                 above, the company never attempted to produce headbands for
                 sale.

                 Company B also represented that it intended to develop,
                 manufacture, and market sweatbands using starch/plastic/combed
                 with fibers, starch absorbents and rayon/cotton.      We noted
                 that the raw material used in the production of the
                 incontinence pads was primarily wood pulp. In addition, about
                 70 percent of the raw material used was from Canadian sources.

                 We found that AARCC’s monitoring efforts for this investee
                 were insufficient. AARCC performed only one monitoring visit
                 between August 1995 and April 1999. During that visit, which
                 occurred in 1997, AARCC first learned that the company had
                 abandoned the production of headbands. Since that time, AARCC
                 has attempted to renegotiate the agreement with the company
                 without success.

                 Had AARCC been more vigilant in its monitoring efforts, the
                 Corporation would have been aware of the company’s
                 nonperformance as well as their usage of Canadian agricultural
                 materials in production. In addition, AARCC took no legal
                 action to assure the Government’s financial position was
                 protected after it became aware of this improper activity.
                 Our review disclosed that the company sales of incontinent
                 pads are approximately $80,000 per month, using AARCC financed
                 equipment.    Almost 4 years after the inception of the
                 agreement, AARCC has received no return on its investment.

             •   During October 1993, AARCC entered into a repayable
                 cooperative agreement for $715,000 with Company C to
                 commercialize oil absorbents from low grade wool.      AARCC’s
                 money was used to finance 50 percent of the cost of production
                 equipment. During our audit, we found that the Government
                 financed production line was being used almost solely to
                 manufacture non-AARCC sponsored products. If AARCC were to




USDA/OIG-A/37099-1-FM                                                  Page 15
                      receive its royalty repayment based on the sales of all
                      products from that line, instead of the production of the wool
                      based product, it would have earned in excess of $1 million
                      during the time period 1995 through 1998. Instead, AARCC has
                      received just over $5,000.

                      AARCC’s ineffective monitoring and enforcement procedures
                      allowed this condition to exist for the past 6 years. Our
                      audit disclosed that AARCC was aware of the misuse of
                      Government funded equipment as early as December 1996. At
                      that time, AARCC and the company renegotiated the agreement to
                      allow for royalty payments for sales of wool-based items
                      manufactured on Company C’s other production lines.        The
                      amended agreement has provided only a nominal return on
                      investment to AARCC.    AARCC has taken no legal actions to
                      ensure compliance with the AARCC agreement.

                      AARCC’s investment in this company was made over the
                      objections of an independent business reviewer who noted that
                      the pre-proposal was based on limited research and that there
                      was a limited market for environmental use of this product.7
                      We believe that the independent reviewer’s concerns have been
                      validated. AARCC files contain no explanation as to why the
                      warnings of the independent business reviewer were not heeded.

                 •    In March 1997, Company D and AARCC entered into a venture
                      capital agreement for $400,000. In January 1998, AARCC also
                      agreed to guarantee a $500,000 line of credit. In September
                      1998, AARCC paid the bank the $500,000 guarantee because the
                      company was unable to maintain an adequate debt to equity
                      ratio, thereby defaulting on the terms of the line of credit.
                      The company received the funding to develop a market for oil
                      absorbents derived from cotton. However, the company failed
                      to use a large portion of AARCC venture capital funds for the
                      purposes outlined in the agreement. Instead, the company used
                      AARCC funds to repay debts incurred prior to the inception of
                      the venture capital agreement. As a result, over $258,000 was
                      not used to contribute to the manufacturing and marketing of
                      oil absorbent product, as required by AARCC.          We also
                      determined that AARCC did not require the company to match the
                      $500,000 follow-on investment.

                      Given the current financial position of this company, we
                      seriously question the ability of this company to function as
                      a going concern.




7 The pre-proposal is subject to reviews by three outside independent reviewers and AARCC staff.
The independent reviews consist of business, technical and general (management) reviews. The AARCC
Board then evaluates the findings of the reviewers and determines which project merit further
consideration.



USDA/OIG-A/37099-1-FM                                                                    Page 16
             •   We noted two other investees, Companies G and K that used
                 AARCC funding to pay down existing debt of their owners.
                 Company G used $586,000 of AARCC’s approximate $1 million
                 investment to pay off bank loans incurred prior to receiving
                 AARCC funds.   The AARCC agreement prohibited this because it
                 was structured to advance funds for future expenses and not to
                 provide for the reimbursement of prior debts. This company is
                 in serious financial difficulty, and has ceased plans for the
                 production of the product.

                 Company K used about $344,000 of AARCC’s approximate $450,000
                 investment to pay down existing debt to a related company that
                 was owned by one of the partners of Company K. Correspondence
                 between AARCC and the company indicated that AARCC approved of
                 the company’s use of funds to satisfy prior debts because "it
                 was just bookkeeping." This company is now out of business
                 and, in effect, this transaction allowed the company to use
                 AARCC funding to repay the partner for his prior investment
                 before shutting down operations.

             •   During September 1994, AARCC entered into a repayable
                 cooperative agreement with Company E for $235,000 to be used
                 to market biodiesel, a fuel produced from vegetable oils or
                 animal fat and other products made from esterified oils.
                 These funds were deposited into three different bank accounts.
                 Only limited sales of the biodiesel product were realized. In
                 March 1997, the original agreement was amended to change all
                 references from Company E to its parent company, a wholly-
                 owned Canadian corporation. In effect, AARCC’s investment was
                 in a wholly-owned foreign corporation.

                 The budget submitted to AARCC required Company E to use the
                 funds, including $235,000 in matching funds, for expenditures
                 related to trade shows, direct marketing, advertising,
                 shipping, demonstrations and testing.    At our request, the
                 company provided a spreadsheet detailing the use of the
                 $470,000 in AARCC and matching funds. We noted significant
                 discrepancies. For example, a consulting firm was listed as
                 an expense on the spreadsheet for about $90,000. Company E
                 claimed that $45,000 of AARCC funds and $45,000 of matching
                 funds were used to pay consulting fees. The company provided
                 "invoices" from the firm.        However, we contacted the
                 consulting firm who advised they have never received payment.
                 Therefore, we believe the reported usage of the $45,000 of
                 AARCC funds is incorrect.

                 Another error noted in the reported use of funds was salary.
                 Per the company, $182,000 of the AARCC and matching funds were
                 used for salaries. Our review disclosed, however, that only
                 $90,000 was actually paid during this time period. According




USDA/OIG-A/37099-1-FM                                                  Page 17
                 to the president’s W-2, he only received about $1,000 in
                 salary during this time period.    However, we noted checks
                 totaling about $106,000 that had been written to him.     He
                 later claimed that these were for salary and consulting
                 services. However, these payments were not supported and had
                 not been reported to the Internal Revenue Service.      This
                 company is experiencing severe financial difficulties and we
                 question its ability to continue to function as a going
                 concern.

           Questionable Related Party Transactions
           We noted numerous instances of highly questionable and potentially
           fraudulent related party transactions.        We noted that seven
           companies used AARCC funds to pay administrative and other expenses
           to non-AARCC affiliated companies. This activity would have been
           identified and reported had AARCC obtained audited financial
           statements as required in its investment agreements. We recommended
           in our previous financial statement audit that AARCC enforce this
           requirement. However, AARCC has not indicated that it is willing to
           do so. Details follow.

           •     At Company F, about two thirds of AARCC’s approximate $606,000
                 investment, was used to pay consulting fees to a company
                 operated by Company F’s president. In effect, the company
                 president paid himself for consulting services using AARCC
                 funds. The company is currently indebted to AARCC for more
                 than $1 million. The company does not have sufficient funds
                 to pay AARCC and is currently attempting to relocate its
                 operations to Iceland and South Africa.        In effect, the
                 company is out of business.

           •     For Company B, there were numerous transactions between the
                 company and a related company. The related company is owned
                 by the Chief Executive Officer of the AARCC funded company and
                 is co-located on the same premises.      Company B rents the
                 building where manufacturing operations are conducted from the
                 related company for $6,000 per month for about 60 percent of
                 the building. The related company, in turn, pays about half
                 that amount to the Company B’s owner for rent of the entire
                 building.

           •     For Company E, we were provided bank statements and/or
                 cancelled checks relating to seven companies to support
                 expenditures. The seven companies are subsidiaries of their
                 "parent," a Canadian holding corporation. We noted that funds
                 were frequently transferred between the companies’ accounts
                 with no explanation or support for the expenses. The last two
                 draw downs of AARCC funds, totaling over $50,000, were
                 deposited directly into the bank account of one of the




USDA/OIG-A/37099-1-FM                                                  Page 18
                 related companies and we were unable to verify if the use of
                 these funds was appropriate.

           Investees Failed To Contribute Matching Funds
           We noted where eight companies failed to invest matching funds
           totaling close to $3 million, as required by legislation. We found
           that AARCC had no effective process to assure that matching funds
           were contributed by companies, and that, in some instances, AARCC
           was aware of this serious breach of the agreement. We also noted
           that AARCC awarded additional funding without requiring the company
           to complete its previous matching requirements.       The matching
           requirement is set by law in the FAIR Act of 1990 and the FACT Act
           of 1996 and is a critical requirement which helps to ensure that
           AARCC investees have a vested interest in the success of the
           company.

           Venture capital investment firms contacted during this audit also
           emphasized the critical need for companies to match investments.
           They noted that this requirement is one of the single most critical
           aspects of assuring success of a venture capital company. Examples
           of the problems noted follow.

           ·     The AARCC agreement required that Company B invest at least
                 $350,000 cash and over $1 million of in-kind contributions
                 (building, laboratory, support services, etc.) to the project.
                 We found that the company did not contribute the $350,000 to
                 the project or make the $1 million in-kind contributions.

           ·     Company G attempted to match the initial $500,000 AARCC
                 funding by not drawing its owner’s $160,000 annual salary.
                 However, the salary was merely deferred and reported as a
                 payable due to the company official. Since the president will
                 be paid for his services in the future, this deferred salary
                 cannot be counted towards the matching requirement.        The
                 second $500,000 in AARCC funding provided in November 1997 was
                 to be matched through an $11 million bond issue. However, the
                 bond issue was not obtained and matching was again not
                 provided.

           ARCC took no action to enforce this critical requirement when it
           noted that matching had not taken place.

           Companies Are Not Submitting Annual Audited Financial Statements
           Nine of the companies did not submit annual audited financial
           statements to AARCC, a breach of their agreement with AARCC.
           Without audited statements, AARCC does not have reasonable assurance
           as to the financial position and results of operations of its
           investee companies. Enforcement of the audited financial statement




USDA/OIG-A/37099-1-FM                                                  Page 19
           requirement is critical to allow AARCC to effectively monitor its
           investments.    Generally accepted Government auditing standards
           audits   which   are  required   by  legislation,   would   provide
           substantiated reporting on the appropriate use of Government funds.
           AARCC would also be made aware of budget overruns, matching
           violations, royalties in arrears, related party transactions and
           investees on the verge of failure if annual financial statement
           audits were performed, submitted to AARCC, and properly analyzed by
           AARCC.    As noted above, AARCC is not willing to enforce this
           requirement.

           Grants Awarded Non-Competitively
           The grants we reviewed for Company H were not awarded competitively,
           a violation of the FACT and FAIR Acts.         We found that grant
           requirements were also not followed by the grantee. The company did
           not maintain sufficient records to show what work was actually
           performed for AARCC. These grants also have resulted in no tangible
           benefit to AARCC or its investees.      In addition, AARCC awarded
           funding to two other AARCC investees so that those companies could
           retain the services of Company H. One company declined to use the
           grantee’s service and the other company reported its "severe
           disappointment with the lack of results" from using Company H.

           Violations of Departmental Regulation 1700-2
           As shown above, AARCC knew that some investees may have improperly
           used AARCC funds. However, none of these instances were referred by
           AARCC staff to the Inspector General for possible investigation.
           This violates Departmental Regulation 1700-2 which requires USDA
           employees to "promptly report to OIG or proper officials any
           instances of known or suspected violations or irregularities in USDA
           programs...".   Examples follow:

           ·     AARCC files contained a letter dated April 22, 1998, from a
                 director of Company A alerting shareholders to the "disastrous
                 stewardship of this company" by the company’s president.
                 AARCC did not refer this matter to OIG.

           ·     AARCC received two electronic mails, dated June 30, 1998, and
                 July 7, 1998, detailing concerns about Company G’s use of
                 Government funding. Our review confirmed the validity of the
                 communicated concerns. The matter was not referred to OIG.

           ·     AARCC’s Due Diligence Committee minutes, dated January 30,
                 1998, discussed potential improprieties committed by the
                 former AARCC Executive Director.      The minutes documented
                 potential infractions because the former employee was
                 contracting with AARCC investees for consulting services
                 within 1 year of resigning his position. AARCC’s actions were




USDA/OIG-A/37099-1-FM                                                  Page 20
                 limited to contacting the company and advising it to cease its
                 dealing with the former employee. AARCC failed to report the
                 matter to OIG.



       RECOMMENDATIONS


            1.   Discontinue making further investments until the material
                 weaknesses noted in this report and OIG Audit Report
                 No. 37401-2-FM are substantially corrected.

            2.   Take immediate actions, including all necessary civil legal
                 action, to force investees to abide by their investment
                 agreement.

            3.   Take immediate actions to protect the Government’s interest
                 and remedy the specific problems noted in this report and
                 subsequent correspondence.

            4.   Coordinate all planned actions with OIG to assure no planned
                 actions impact potential OIG investigative activity.

            5.   Contract with financial and venture capital experts to assist
                 in resolving the management problems within the Corporation
                 and to obtain the market value of each of AARCC’s investments.

            6.   Develop a comprehensive and targeted investee monitoring
                 process   and  checklist  based  upon   analysis   of our
                 recommendations,   and   require   onsite    monitors  to
                 comprehensively document their visits, conclusions, and
                 recommendations.

            7.   Assure that AARCC officials are members of the investees’
                 Board of Directors including positions on the audit and
                 compensation committees.

            8.   Develop an exit strategy for the companies identified in this
                 report who have ceased production or are in serious financial
                 trouble to assure the Government’s funds are adequately
                 protected.

            9.   Develop controls to assure that DR 1700-2 is adhered to by
                 AARCC personnel. Provide periodic training to AARCC personnel
                 to assure adherence to this regulation, including the referral
                 to OIG for any condition noted that requires additional audit
                 and/or investigation.




USDA/OIG-A/37099-1-FM                                                  Page 21
           10.   Monitor compliance with investees’ adherence to project’s
                 objectives.

           11.   Contract with appropriate experts to perform both file and on-
                 site reviews to ascertain whether serious problems exist with
                 all other AARCC investments.

           12.   Collect royalties and other monies due from the companies
                 identified in this report.

           13.   Disallow and collect back from the investees any budget
                 changes in excess of 10 percent that were not approved by
                 AARCC.

           14.   Coordinate with ARS on the actions necessary to enforce the
                 licensing agreement requirements for the investee cited in
                 this report.

           15.   Advise all investees, in writing, of the requirement to obtain
                 AARCC approval of the 10 percent variance of budgeted with
                 actual requirement and the potential penalties if not adhered
                 to.




USDA/OIG-A/37099-1-FM                                                  Page 22
                                           Our review of the operations at 11
            FINDING NO. 2                 judgmentally     selected     AARCC
                                          investees and 1 grantee disclosed
                                          no substantive evidence that the
    RESULTS INDICATE AARCC HAS            AARCC funded activity resulted in
     FAILED TO ACCOMPLISH ITS             job creation in rural areas or
                                          expansion of agricultural markets
               MISSION                    on any material basis. There were
                                          no jobs created at 5 locations; a
                                          decrease of 19 jobs at 3 locations;
                                          and only 1 job was created at 1
          company. However, the AARCC sponsored product only represents about
          20 percent of this company’s operations. The jobs created at the 2
          remaining locations were not as a result of the AARCC project.

           In addition, of the 11 companies visited, 4 have ceased operations
           and 5 are experiencing serious financial difficulties, and the
           remaining 2 are, in effect, not producing the AARCC sponsored
           product.

           According to the FACT Act of 1990, AARCC’s Board of Directors may
           select a research, development, or demonstration project to receive
           a grant, contract, or cooperative agreement based on the likelihood
           that the project will result in creating or improving economically
           viable commercial non-food, non-feed products, applications,
           processes, or technologies that involve the use of raw or processed
           agricultural commodities. According to the law, the criteria to be
           considered include the following:

           (1)   developing technologies that make it possible to use
                 agricultural commodities to provide a viable quantity of new
                 non-food, non-feed products,

           (2)   the potential market size of the new non-food, non-feed
                 product and the potential for job creation in an economically
                 distressed rural area,

           (3)   the anticipated State or local private participation,

           (4)   the likely impact on reducing Federal crop subsidies,

           (5)   the likely positive impact on resource conservation and the
                 environment, and

           (6)   the likely positive effect of helping family-sized farmers and
                 rural communities.

           For the 11 investments reviewed, (we excluded the grant from this
           analyses since its purpose was to expand markets), we determined
           whether the investment met the criteria included in the legislation.




USDA/OIG-A/37099-1-FM                                                  Page 23
            The chart below details the data obtained during our audit of the
            companies.

                                                                                     Was There
            Did the Project                   Was                                        A
              Help Develop      Were New   State or     Was There A   Was There A    Positive
            Technologies To        Jobs      Local        Reduction      Positive    Effect on
           Provide New Non-      Created   Private       In Federal     Impact on     Farmers
             food, Non-feed     in Rural   Funding          Crop      Conservation   or Rural
 Company       Products 8         Areas    Provided       Subsidies     Resources      Areas

    A             NO               NO        YES             NO           NO             NO
                                    9              12
    B             NO              NO         YES             NO           NO             NO
                    10              9
    C            YES              NO         YES             NO           NO             NO
                    11                             12
    D            YES               NO        YES             NO           NO             NO
                    11
    E            YES               NO        NO              NO           NO             NO
                    11                             12
    F            YES               NO        YES             NO           NO             NO
                    11                            12
    G            YES               NO         NO             NO           NO             NO
                                                   12
    I             NO               NO        YES             NO           NO             NO

    J             NO              NO9
                                             NO12            NO           NO             NO

    K             NO               NO         NO12           NO           NO             NO

    L            YES11           TBD13       YES12           NO          TBD13          TBD13



            Job Creation Goal Not Met
            AARCC identified job creation in rural areas as one of its
            performance measures under the Government Performance and Results
            Act. In the overview of its fiscal year 1997 financial statements,
            AARCC claimed that one of its goals is to create 10,000 jobs by the



             8
                 These headings correspond to the criteria to be considered when selecting
            investments.
             9
                 Some job growth occurred, but not as a result of AARCC sponsored project.

            10
                 Less than 2 percent of sales activity was attributed to AARCC sponsored project.

            11
                 Technology was developed but has yet to be successfully marketed.
            12
                 Company failed to meet matching requirements.
            13
                 TBD - Results are uncertain at this time.




USDA/OIG-A/37099-1-FM                                                                   Page 24
           year 2002.   As part of our audit, we reviewed the 11 investees’
           operations to determine the number of jobs that had been created as
           a result of the AARCC’s involvement in the projects.

           In order to determine whether AARCC was making progress in attaining
           this critical goal, we obtained evidence from the investees as to
           employment levels prior to AARCC’s investment and current employment
           levels.   We also compared current employment levels to the job
           creation data provided by the companies in their pre-proposals to
           obtain AARCC funding. The following table summarizes the results of
           our tests:

                                                                     ESTIMATED JOBS
                         NO. OF JOBS                                   BY 1999 AS
                        PRIOR TO AARCC   NO. OF JOBS   NO. OF JOBS    REPORTED TO
              COMPANY      FUNDING       AS OF 1999      CREATED          AARCC

                A             7              7              0             222

                B             6              13             7             41

                C            233             293           60             100

                D            18              12            (6)            13

                E             9              1             (8)           2050

                F             0              0              0             49

                G             2              2              0             83

                I             0              0              0             11

                J             2              3              1              7

                K             5              0             (5)          NO DATA

                L             4              4              0             17

           The only three companies which showed any positive job creation are
           Companies B, C and J. Both Companies B and C are in serious breach
           of the AARCC agreement by producing primarily non-AARCC products.
           Company J resulted in the creation of one job; however, the AARCC
           product only represents about 20 percent of its operations.
           Therefore, for these investees, we concluded that the AARCC program
           was not responsible for any meaningful job creation.        Overall,
           AARCC’s $8 million investment (which represents more than 21 percent
           of all AARCC investments) in these 11 companies, over a 6-year
           period, resulted in fewer jobs than before AARCC’s involvement.




USDA/OIG-A/37099-1-FM                                                           Page 25
           Increased Usage of Agricultural Products Insignificant
           We noted deminimis usage of agricultural products. As noted above,
           of the 11 companies visited, 4 have ceased operations, 5 are
           experiencing serious financial difficulties with limited production,
           and the remaining 2 are, in effect, not producing the AARCC
           sponsored product. None of the companies have approached estimated
           usage of agricultural materials provided to AARCC in their
           proposals. For example, Company C estimated usage of 30 million
           pounds of raw wool annually; the company actually has used an
           average of about 15,000 pounds. Company I estimated annual usage of
           2.4 million pounds of corn husks annually. However, production has
           ceased at the company. Company G estimated that it would use 24
           million board feet of low grade hardwood; however, no production
           occurred.

           Although Company B received $452,000 in Government funds, we noted
           that its purchases are benefiting foreign agricultural markets more
           than U.S. agricultural markets. The company has obtained about
           70 percent of its raw agricultural materials from Canada for use in
           production. Review of the investment file maintained by AARCC gives
           no indication that AARCC was aware of this condition. Company A
           represented to AARCC that it would use kenaf in its product.
           Instead, the company has used recycled cardboard.      Furthermore,
           AARCC was aware of this fact, yet continued to invest heavily in
           Company A.


       RECOMMENDATIONS


           16.   Require investees, as part of their audited financial
                 statements, to report on the benefits derived, as noted in the
                 FAIR Act, on the AARCC investment.

           17.   Analyze each AARCC investment to determine the benefits
                 derived from AARCC funding. Develop investee specific plans
                 to assure the maximum benefit from Government invested funds
                 are achieved.

           18.   Revise AARCC’s Overview and Supplemental Information and
                 Budgetary Notes to accurately disclose the benefits identified
                 in Recommendation No. 16.




USDA/OIG-A/37099-1-FM                                                  Page 26
  CHAPTER 2 - AARCC’S OPERATIONS WOULD BENEFIT BY EMPLOYING BEST
  PRACTICES


                                     AARCC’s     investing     and   monitoring
          FINDING NO. 3               processes are  ineffective and frequently
                                      result in the investment of Government
                                      funds in a company with little chance of
                                      success.       Additionally,   subsequent
                                      actions by the company frequently placed
           the Government’s investment at risk. We noted where AARCC could
           benefit by employing "best practices" for researching and monitoring
           investments, as implemented by other National, State and private
           venture capital investment firms.       As noted in our financial
           statement audit report, we believe that at least 75 percent of
           AARCC’s investments totaling over $27 million are at risk. Although
           all venture capital companies have high risk, much of AARCC’s high
           risk occurs simply because its procedures fall significantly short
           of the procedures implemented by other venture capital companies.

           We compared the oversight procedures implemented by other Federal,
           State, and private venture capital investment firms to the
           procedures implemented by AARCC. We interviewed individuals from
           the National Venture Capital Association, the Director of SBA’s SBIC
           Operations, an associate professor of Business Administration from
           Harvard University, and numerous other State and private venture
           capital managers and informed personnel.

           We also obtained a report from the Legislative Division of Post
           Audit of the State of Kansas entitled, "Reviewing the State’s
           Investment in Venture Capital."     The State auditors completed a
           performance audit on the Kansas Technical Enterprise Corporation and
           issued the report in January 1998. The auditors surveyed publicly
           funded venture capital firms from nine other States. In addition,
           we surveyed four publicly financed venture capital companies in
           order to compare their internal control structure with the internal
           control structure at AARCC. The companies provided information on
           operating procedures regarding due diligence, monitoring, and
           repayment structures.    The significant disparities noted between
           these companies and AARCC operations include:

           ·     The due diligence process performed prior to approval of the
                 investment was much more intensive than AARCC’s. Background
                 investigations were more extensive and included a thorough
                 assessment of management’s capabilities.

           ·     Annual audited financial statements were usually required.




USDA/OIG-A/37099-1-FM                                                  Page 27
           ·     Timely financial reports were required and obtained (quarterly
                 and/or monthly) and thorough reviews of the entity’s budgets
                 were performed.

           ·     Stronger controls over a breach of contract were enforced.
                 Breaches of contract were not tolerated, and legal action was
                 taken when necessary.

           One typical response was received from a State sponsored venture
           capital corporation which shows the substantial differences in the
           operating procedures employed by it and AARCC.           The State
           corporation performs the following due diligence prior to making an
           investment:

           ·     An investment analyst assigned to a venture prepares an
                 extensive investment report covering the product, market,
                 management, and financial aspects of the investment.       The
                 report with appendices will often run 40-50 pages.         The
                 investment analyst will normally spend between 60-100 hours in
                 researching and preparing the report. AARCC uses independent
                 experts; however, ignored their recommendation to reject the
                 proposal for 2 of the 11 investees reviewed.

           ·     Credit checks, background investigations and references are
                 obtained for potential investees.      The investment analyst
                 pursues not only direct references but also indirect business
                 and personal references identified in the due diligence
                 process. AARCC has only recently started to perform credit
                 checks and we noted insufficient background investigations and
                 reference checks.

           ·     Prior to the board meeting at which the staff plans to
                 recommend an investment, an officer of the Corporation and a
                 member of the Board will visit the company. This visit is
                 designed to resolve any questions or concerns raised in the
                 investment analyst’s report.   We noted that AARCC approved
                 investments without performing due diligence and site visits,
                 or approved investments in conflict with independent expert
                 recommendations.

           ·     Investment analysts have full access to company records which
                 enables the analyst to have a clear understanding of how the
                 funds are being utilized and what modifications to the use of
                 funds might be necessary. We noted no similar analyses in the
                 AARCC files we reviewed.

           ·     Investments are made conditional upon the contemporaneous
                 closing of coinvestment including capital from the principles
                 of the company. AARCC takes no actions to ensure




USDA/OIG-A/37099-1-FM                                                  Page 28
                      coinvestments are made. We noted that 8 of the 11 companies
                      visited did not contribute the required matching capital.

               ·      Annual audited financial statements are generally required
                      from investees. The AARCC agreement requires annual audited
                      financial statements, but AARCC does not enforce the
                      requirement.

               ·      Investees are required to provide unaudited monthly financial
                      statements and annual budgets.     AARCC requires semiannual
                      reports but, does not enforce the requirement.

               ·      When material breaches of contract occur, the venture capital
                      firm will attempt to negotiate a mutually acceptable
                      modification.   If that fails, it will take legal action
                      against the company. We noted that AARCC has not initiated
                      legal action against companies where there have been serious
                      breaches of contract.

               The Office of Inspector General for SBA, published an Inspection
               Report on SBA’s Small Business Investment Companies’ (SBIC) Best
               Practices in August 1994.14 Our review of the report disclosed the
               following characteristics, that marked a financially successful
               SBIC, which were lacking or needed improvement in AARCC’s
               operations.

               ·      SBA SBIC’s use a systematic approach to identify, evaluate,
                      and structure deals; closely monitor the financial health of
                      their investment portfolios through regular reviews of their
                      investees’ financial and operational records; and rigorously
                      follow up on late payments.

               ·      SBA SBIC’s use a rigorous loan approval process to assure
                      creditworthiness before authorizing funding.

               ·      Profitable SBIC’s have explicit strategies and adhere closely
                      to them to minimize risk.

               ·      SBA SBIC’s use a systematic process for evaluating investment
                      opportunities. Detailed analyses focusing on the company’s
                      management, business plan, and financial records are
                      performed.




14
  "Inspection of SBIC Best Practices," dated August 1994, Report No. 94-08-002, Office of Inspector
General, U.S. Small Business Administration




USDA/OIG-A/37099-1-FM                                                                     Page 29
           ·     SBA SBIC’s perform reference checks with suppliers, customers,
                 and industry contacts to assess the integrity and reliability
                 of the investees’ management. Credit checks are performed to
                 assess payment history and legal reviews are conducted to
                 determine such matters as patent rights.

           ·     For most investees, SBA SBIC’s perform at least one of the
                 following: (1) Conduct site visits and meet regularly with
                 management, (2) review monthly financial statements, annual
                 business plans, and annual audits, and (3) perform quarterly
                 analyses of the composition of their portfolios. In addition,
                 when a company experiences problems, the monitoring efforts
                 are accelerated    by   (1) requiring weekly reports and/or
                 meetings, (2) encouraging more frequent meetings of the
                 company’s board of directors, and (3) in some cases, requiring
                 daily meetings.


       RECOMMENDATIONS



           19.   Develop a "Best Practices" model and modify current procedures
                 to incorporate those practices.




USDA/OIG-A/37099-1-FM                                                  Page 30
